            Office of Inspector General
                     All Hands




                   March 15, 2010


3/15/2010                                 1
                All Hands Objectives

    1. Discuss my expectations for the OIG

    2. Provide departmental updates

    3. Answer your questions
            Previously submitted and today




3/15/2010                                    2
                        Expectations


     –      Mutual respect
     –      Steady hand at the wheel
     –      Communicate       ,    ,   ,&
     –      Management supports management
     –      Know your staff and be caring
     –      High quality & timely work products
     –      Mistakes are for learning

3/15/2010                                         3
                   Departmental Update


    •       OIG Strategic Plan

    •       OIG Priorities

    •       OIG Organization

    •       Organization Assessment

3/15/2010                                4
                      OIG Strategic Plan

    •       Ensures alignment with Amtrak’s strategic
            goals

    •       Embraces the type of work we will perform
            moving forward

    •       Implementation will occur over time


3/15/2010                                               5
                         OIG Strategic Goals
  •         Goal 1: Promote a safe and secure environment for Amtrak
            employees, passengers, and public. (Safer)
  •         Goal 2: Advocate an energy-efficient and environmentally
            responsible rail system. (Greener)
  •         Goal 3: Reinforce a “State of Good Repair” and a modern, and
            reliable operation. (Healthier and Financial Performance)
  •         Goal 4: Promote exemplary customer service, increased
            ridership, convenient connections, and reduced trip times.
            (Customer Service)
  •         Goal 5: Advance the efficient and economic expansion of
            national transportation needs and response to national
            emergencies. (Meet National Needs)
  •         Goal 6: Lead by example as a model OIG. (OIG Operations)


3/15/2010                                                                  6
            OIG Strategic Plan




3/15/2010                        7
                          OIG Priorities

    •       Revise policies to meet letter and spirit of
            the IG Act (consulting with other IGs)

    •       Repair relationships

    •       Strengthen OIG processes

    •       Work to address high value issues

3/15/2010                                                  8
                                    OIG Organization
                                                Ted Alves
                                             Inspector General


                                                                       Sheila Scott
                                                                 Sr. Executive Assistant


                                                 VACANT
                                             Deputy Inspector
                                                 General




       Bret Coulson       Gary Glowacki       Colin Carriere         VACANT                Calvin Evans
          Assistant           Assistant      General Counsel          Assistant              Assistant
     Inspector General   Inspector General                       Inspector General     Inspector General
      for Management         for Audits                          for Investigations     for Inspections &
         and Policy                                                                        Evaluations




3/15/2010                                                                                                 9
            Organization Assessment
  • National Academy of Public Administration
    – Understands the unique challenges facing
      IG operations
    – Examine our current operations and identify
      opportunities for best practices
    – Focus on issues important for building a
      performance-driven culture
    – Begin work within the next 30 days


3/15/2010                                       10
            Questions?



3/15/2010                11
